Audit Report



Return
    to the USDOJ/OIG Home Page




Grants to Encourage Arrest Policies and Enforcement of Protection Orders Administered by Dane County, Wisconsin

Report No. GR-50-04-003


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Grants to Encourage Arrest Policies and Enforcement of Protection Orders awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to Dane County, Wisconsin (County).  The purpose of these grants was to encourage the treatment of domestic violence as a serious violation of criminal law.  Between May 2, 1997, and September 30, 2002, Dane County was awarded a total of $1,771,146.1
We tested the County's accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.
Our audit revealed significant weaknesses in the County's grant management practices.  Specifically, the grantee commingled grant funds and, therefore, officials could not readily provide separate, official accounting records related to the audited grants.  Further, using the available records, the grantee was not able to fully account for grant expenditures.  Also, the County made a significant number of payments that were not based upon original invoices, or at times, any supporting documentation.  As a result, we question $1,766,964 in grant funds received and recommend an additional $4,182 be put to better use.2   For example, we found:

The grantee did not have semiannual time certifications for employees that worked solely on the grant and were paid with grant funds.  As a result, $1,544,692 in personnel costs was unsupported.  In addition, the grantee's expenditures for personnel included unapproved vacation time and fringe benefits, costs in excess of the approved grant budget, and instances in which individuals worked less than the expected number of work hours but received full pay.


The equipment and technology that the County purchased with grant funds was not the same as what was detailed in the approved grant budget.  Therefore, we question $116,366 for the unapproved expenditures.


A total of $4,867 in travel, training, and other costs was either unsupported or was unallowable because funds were used to pay for unapproved costs such as printers and unnecessary lodging.  In addition, a portion of these questioned costs was for travel that was not identified as grant related.


Due to cumulative errors in the financial status reports, grantee officials believed that all awarded funds had been expended and drawn down.  However, according to OJP, a total of $4,182 remained available at the end of the grant period.  OJP should deobligate these funds and put them to better use.

Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The County received a total of four awards; each was awarded under the same grant number of 97-WE-VX-0085.
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.